                                 CLOSEOUT FOR M97020005

On October 15, 1996, OIG received a copy of a facsimile message from the complainant1 in
which she alleged that a project she had described to NSF was being used by others without
her permission and she had received no response from NSF about her project. The message
included a copy of a completed NSF Final Project Report Cover Page. OIG could find no
record of the complainant or the complainant's project in NSF's data base.

OIG contacted the complainant with a request for sufficient information to be able to inquire
into her allegations. On the basis of information and documents provided by the complainant
OIG learned that she had submitted materials to NSF in 1994. According to a letter NSF sent
the complainant, those materials did not conform with NSF's requirements for proposal
submissions. The letter returned her submission and included copies of NSF's Grant
Proposal Guide (NSF94-2) and the NSF Division's Program Announcement and Guidelines
(NSF93-13 1) and a suggestion that she reconsider her submission "in light of these materials."
On the basis of the materials she had submitted, it identified for her the NSF Division to
which she should submit a full proposal if she elected to do so.

Several months later, the complainant resubmitted her materials with "the change" indicated.
OIG also learned that the complainant has alleged to another federal agency2 that it is using a
concept that she had "repeatedly tried to present" to it. She has "demand[ed]" to that federal
agency that she be included in its program.

Among the materials the complainant provided OIG was an additional copy of the completed
Final Project Report Cover Page (Form 98A) and a partially completed Proposal Cover Sheet
(Form 1207). Beyond the one Proposal Cover Page, the complainant did not provide copies
of other parts of either submission. The NSF program staff and proposal processing staff
could not recall, for OIG, either submission. The NSF program had not retained a copy of the
letter sent to the complainant in response to her first submission. Beyond finding that NSF
had no record of the complainant's submissions, OIG was unable to determine what had
happened to them. OIG contacted the complainant for additional information and also asked
about the circumstances in which NSF had requested that she complete a Final Project Report
Cover Page. The Final Project Report Form is normally sent with name, address, grant
number, and award date information by NSF to only the PIS of funded NSF projects whose
projects have concluded. The complainant's Final Report Form Cover Page contained the
complainant's home address, the project title and misidentified both the complainant as the
NSF program official and her project as the NSF program.

The complainant told OIG that her real interest was in determining how the concept she
described to NSF might have made it into the other agency's project. OIG told the
complainant that without further information it would not be possible to determine if her NSF


'The complainant is3   -(                             She is the ( ' e a c h e r at-
Elementary School ina-.                         -s         not defined by the complainant in her communications
with OIG.
 The other federal agency is the United States Department of Agriculture.
                                           Page 1 of 2                                    M97-05
                            CLOSEOUT FOR M97020005

submissions were connected in any way with the other federal agency's project. Because she
declined to provide further information we closed this inquiry. No further action will be taken
in this case.

cc: Staff Scientist, Legal, AIG-Oversight, IG




                                     Page 1 of 2
